                                  NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTORGENERAL


     MEMORANDUM

     DATE:           September 12, 1996




     RE:             Case Resolution

             O n August 12, 1996 we received an allegation from NSF P '
                   of possible misspent funds on an SBIR Phase I award to
                     stated that although
                                        - NSF had made final payment
     1996, several expenses were left unpaid by         e at the end of the award. Specifically, the
     PI stated that payments to two                      SBIR award and payments for laboratory
                                    were outstanding. According to the PI the amounts owed are as




            The PI is no longer employed by              and suggests that the fact that the
     company. cannot pay these                                  that the NSF funds were
     misappropriated. According to the PI, th&e expenses were well within the program budget
     and should have properly been paid for b

             We contacted one of the consultants on the award who stated that he and another
                                         . - officer at 'NSF. The Droaram officer contacted
     consultant had contacted the SBIR Droaram
                 nd was told that there had been a cost overrun on
"-   have t e money presently to pay the consultants, but stated
     consultants as soon as the funds were available. The program manager told the consultants
     that NSF was not in privity of contract with any of the consultants and therefore would not          ,
     have the authority to f o r c e to pay for the consulting services rendered.

             We find at thil time, that there is no misuse of funds by              as it may relate to
     the payment of funds to consultants. The company readily                      at the -ionsultants
     deserve to be paid for the work they performed on the project and the company has every
     intention on doing so. Additionally, since NSF has no authority in this situation to intervene
     on behalf of the consultants, we consider the investigation closed at this time.'
